                                                      André Birotte Jr.
                          NEWS                           United States Attorney
                         RELEASE                       Central District of California

                                                    Thom Mrozek, Public Affairs Officer
                       For Immediate Distribution           (213) 894-6947
                                                           thom.mrozek@usdoj.gov
                     December 5, 2011                      www.justice.gov/usao/cac




 Bay Area Woman Sentenced to 18 Months in Prison for Bilking I.R.S.
    Through Tax Returns That Claimed 20 Non-Existent Dependents


       LOS ANGELES – A former Los Angeles resident was sentenced this afternoon
to 18 months in federal prison for filing fraudulent federal income tax returns that
claimed deductions for 20 non-existent children who were supposedly all born on the
same day.
       Norma Coronel, 40, of Livermore, California, who is an illegal alien from Mexico,
was sentenced today by United Stated District Judge Manuel Real. In addition to the
prison term, Judge Real ordered Coronel to pay $302,186 in restitution to the Internal
Revenue Service.
       Coronel pleaded guilty in September to three felony counts – aiding and
assisting in the preparation of fraudulent federal income tax returns, fraudulently using
Social Security numbers obtained with false information, and theft of government
property.
       In a plea agreement filed in this case, Coronel admitted that in 2003 she applied
for and obtained Social Security numbers for at least 20 fictitious children, falsely
claiming that the children had been born to her at a Los Angeles hospital on December
11, 2002. Using these bogus identities, Coronel prepared and filed fraudulent federal
tax returns for family members and friends that claimed dependent deductions and
fraudulently sought refunds.
       Coronel admitted in the plea agreement that she had frequently directed the
IRS to send the refund checks to her own residence or to accounts that she controlled.
Coronel either failed to provide the taxpayers with copies of the returns that she had
filed, or gave them copies of fake returns that had never been filed. As a result, the
taxpayers were not aware that Coronel had filed fraudulent returns in their names or
that Coronel was using the returns to obtain the refunds for her own benefit.
       Coronel has been in custody since she was arrested in this case in July.
       The investigation of Coronel was conducted by IRS - Criminal Investigation; the
Treasury Department’s Office of Inspector General for Tax Administration; and the
Social Security Administration, Office of Inspector General.


       CONTACT: Assistant United States Attorney Paul H. Rochmes
                            Tax Division
                            (213) 894-2413


       Release No. 11-168
